No.
IN THE SUPREME COURT OF THE UNITED STATES
REFUGIO AGUSTIN-PINEDA,
Petitioner,
Vs.
UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 28, United States Code Sect. 1915(a), and Rule 39 of this

Court, applicant asks for leave to file the Petition for Writ of Certiorari to the Ninth
Circuit Court of Appeals without prepayment of fees or costs, in forma pauperis.
The undersigned counsel was appointed pursuant to 18 U.S.C. Sect. 3006A, and
continues in that status to the present time. I declare under penalty of perjury
under the laws of the United States of America that the foregoing is true and

correct.
Dated this 3 day of May, 2021.

s/Dan B. Johnson

DAN B. JOHNSON- WSBA #11257

Counsel of Record- Member of Supreme Court
Bar- Law Office of Dan B. Johnson, P. S.

1312 N. Monroe Street, Suite 248

Spokane, WA 99201

(509) 483-5311

E Mail- danbjohnsonlaw@gmail.com
